                                           NATIONAL SCIENCE FOUNDATION
                                            OFFICE OF INSPECTOR GENERAL
                                              OFFICE OF INVESTIGATIONS

                                    CLOSEOUT MEMORANDUM

rO: AIGI        File Number: I96060030                                                       Date: 6 June 2002

Subject: Closeout Memo                                                                                   Page 1 of I


      There was no closeout written at the time this case was closed. The following information was
      extracted from the file in conformance with standard closeout documents.

      The complainant' informed our office that the subject2refused to work on their joint NSF grant
      during the summers of 1991 and 1992, despite collecting NSF-funded summer salary. In response to
      our query, the subject provided a written explanation of the work he performed to receive the
      summer salary under this grant, as well as financial records from the institution showing the charging
      of the subject's and the complainant's salaries to the university's account for this grant. The
      information provided by the subject was found sufficient to warrant the payment of the summer
      salary under the NSF grant.

      Accordingly this case is ~ l o s e d . ~




       Other allegations by this complainant against this subject regarding their joint grant are addressed in OIG Case
      #M96090024.



                  Prepared by:                           Cleared by:

                 Agent:             Attorney:          Supervisor:        AIGI
   Name:



 Signature &
    date:
